                                     SOCIAL SECURITY
MEMORANDUM

Date:   September 30, 2009                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Quick Response Evaluation: Self-Help Personal Computer Pilot (A-14-10-11001)



        The attached final report presents the results of our review. Our objective was to
        determine the effectiveness of the Social Security Administration’s Self-Help Personal
        Computer pilot. Specifically, this evaluation focused on the impact of Self-Help
        Personal Computers on electronic services’ use and field office performance as well as
        security concerns related to the public’s use of Agency computers.

        If you wish to discuss the final report, please call me or have your staff contact
        Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                         Patrick P. O’Carroll, Jr.

        Attachment
  QUICK RESPONSE
   EVALUATION
Self-Help Personal Computer Pilot

           A-14-10-11001




          September 2009
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                          Background
OBJECTIVE
The objective of this evaluation was to determine the effectiveness of the Social
Security Administration’s (SSA) Self-Help Personal Computer (PC) pilot. Specifically,
this evaluation focused on the impact of Self-Help PCs on electronic services’
(eServices) use and field office (FO) performance, as well as security concerns related
to the public’s use of Agency computers.

BACKGROUND
SSA has administered its services primarily through face-to-face contact with the public
at one of its FOs or by telephone. However, SSA is facing an avalanche of retirement
and disability claims at the same time it must address large backlogs due to years of
increasing workloads and limited resources. To keep FOs from being overwhelmed, the
Agency must find alternative methods to conduct business with the public. One of these
alternatives is through the use of the Internet.

In September 2008, SSA issued its Strategic Plan, which included the Agency’s plan for
long-term improvement of customer service to the public. One of SSA’s strategic goals
is to improve retiree and other core services, which includes the objectives of
dramatically increasing baby boomers’ use of SSA’s on-line retirement services and
improving service for individuals who visit FOs.

One of the initiatives to address this strategic goal is SSA’s Self-Help PC pilot, which
offers FO visitors the option of using FO PCs to conduct their business. Users can
apply for retirement and disability benefits, request a Proof of Income letter, 1 change
their address, appeal a disability decision, and more. Self-Help PCs connect to the
Agency’s existing eServices on SSA’s Website—applications not specifically designed
for the FO environment.

The Self-Help PC pilot is part of the Commissioner’s Space Modernization and
Reception Transformation (SMART) service initiative. The goal is to make FO space
more efficient for conducting business. The pilot also supports the E-Government Act of
2002, which requires that Federal agencies support the efforts of the General Services
Administration to develop, maintain, and promote an integrated Internet-based system
of delivering Federal information and services to the public. 2




1
    Proof of Income letters verify Social Security benefit information.
2
    Pub. L. No. 107-347 § 202(a)(3).

Self-Help Personal Computer Pilot (A-14-10-11001)                                          1
Self-Help PCs were available to the public as early as October 2007. A national rollout
began in February 2009 and was phased in through March 2009 to 58 sites. The
Agency provided between one and three PCs to each site.

One of the expectations of the pilot was to determine the amount of assistance the
public needs to complete Internet transactions. Accordingly, the 58 pilot sites were
divided into 2 models, attended and unattended. Attended models had designated SSA
employees to assist the public at Self-Help PCs, while unattended models did not have
employees readily available for assistance. As a result of space or potential security
issues, only six sites were able to be set up as unattended models. These six sites
comprised three level-1 FOs and three level-2 FOs. 3 The other 52 sites were attended
models that comprised 38 level-1 FOs and 14 level-2 FOs.

To assess the amount of assistance needed, as well as determine the impact of Self-
Help PCs on FO workflow and waiting times, the Agency planned several evaluation
techniques. At attended sites, the Agency designed surveys for employees to complete
every time a Self-Help PC was used. At unattended sites, surveys were available for
users to complete if they wanted to provide the Agency feedback. The Agency also
planned to track usage electronically and gather user feedback from a survey
conducted by the Office of Quality Performance (OQP). 4 Proper evaluation of the pilot
supports the Clinger-Cohen Act of 1996, which requires that the Agency design and
implement a process to maximize the value, assess and manage the risks of its
information technology acquisitions, and provide a means for senior management to
obtain timely information regarding the progress of an information system investment. 5




3
  FOs are structured into four levels based on various factors including their staffing level, service area
population, and proportion of claims. Level 1 typically denotes the largest offices, while level 2 is the next
largest.
4
 OQP directs the Agency-wide integrated quality program that enables SSA to meet its statutory,
stewardship, and service responsibilities. The quality program encompasses both in-line and end-of-line
quality assurance procedures; innovative change through a process of continuous improvement; special
studies; and multi-dimensional data collection and analysis that supports fact-based decision-making.
5
    Pub. L. No. 104-106, §§ 5122(a) and (b)(6), 40 U.S.C. §§ 11312(a) and (b)(6).

Self-Help Personal Computer Pilot (A-14-10-11001)                                                            2
                                                            Results of Review
Based on our review of SSA’s Self-Help PC pilot documentation and interviews with
Headquarters and FO personnel responsible for administering the pilot, we could not
evaluate the pilot’s effectiveness because user feedback and usage information were
insufficient. Surveys were the primary mechanism for collecting Self-Help PC user
feedback; however, we determined employee surveys conducted at attended sites were
not consistently completed, and the responses may not accurately reflect the overall
user experience. Surveys from unattended sites provided limited feedback, with half the
sites not receiving any completed surveys over a 12-week period. Furthermore, the
Agency has been unable to accurately track usage through surveys or electronic usage
logs. As such, improving the Self-Help PC pilot evaluation process is critical to SSA’s
ability to assess and manage the implementation of such a key information technology
investment and assist the Agency in meeting the requirements of the Clinger-Cohen Act
of 1996. 6 We believe the Agency can improve its evaluation techniques by obtaining
Office of Management and Budget (OMB) approval to directly question Self-Help PC
users 7 and by using Visitor Intake Process (VIP) 8 data in conjunction with employee
surveys to better analyze Self-Help PC usage.

With respect to security, the Self-Help PCs we tested 9 were physically secure, and the
Agency had taken steps to ensure the public’s use of its computers did not threaten
SSA’s production environment. The Agency also developed signs/posters to ensure
pilot site visitors were aware of Self-Help PC functions, that use of the PCs was limited
to SSA business, and of how to protect their personal information. According to FO
personnel, the Self-Help PCs have helped with office workloads.

PILOT EVALUATION TECHNIQUES

In reviewing SSA’s survey practices, we noted opportunities for the Agency to improve
its overall approach for assessing the Self-Help PC pilot. We believe the fundamental
areas of focus should be to

•     obtain feedback that reflects the overall user experience; and
•     accurately monitor Self-Help PC usage.



6
    Pub. L. No. 104-106 §§ 5122(a) and (b)(6), 40 U.S.C. §§ 11312(a) and (b)(6).

7
  The Paperwork Reduction Act of 1995 (PRA) requires OMB approval for agencies to collect certain
information. See PRA §§ 3502(3) and 3504(c)(1), 44 U.S.C. §§ 3502(3) and 3504(c)(1).

8
 VIP is a database that tracks all in-office interviews and schedules appointments, monitors visitor and
appointment information, and provides a variety of local office statistical data.

9
 We visited an attended Self-Help PC pilot site in Baltimore, Maryland, and an unattended site in
Louisville, Kentucky.

Self-Help Personal Computer Pilot (A-14-10-11001)                                                          3
User Feedback

As noted in the Background Section, the 58 Self-Help PC pilot sites were divided into
52 attended sites and 6 unattended sites. Attended sites had designated SSA
employees to assist the public at Self-Help PCs, while unattended sites did not have
employees readily available for assistance. The Agency used surveys as the primary
method of capturing feedback from all Self-Help PC pilot sites, but these surveys
differed between attended and unattended sites, as discussed below.

Attended Self-Help PC Pilot Sites

The Agency established a procedure at attended sites for designated employees to
complete an on-line survey each time the Self-Help PC was used. Self-Help PC users
were not asked to complete the surveys. Rather, assigned employees completed
surveys based on their observations and provided information on

•    the transaction’s start and end time;
•    the type of transaction;
•    whether the user was able to complete the transaction, and if not, why;
•    whether the user inquired about a transaction not available on the Self-Help PC;
•    if employee assistance was necessary and if so, for how long; and
•    any other comments offered by users.

During our visit to an attended site, we interviewed five FO employees who had been
designated to assist users on Self-Help PCs. Although Agency policy requires that the
designated FO employee complete a survey every time a visitor uses a Self-Help PC,
we found this was not consistently done. We also compared the number of employee
surveys submitted to FO traffic. 10 As shown in the chart below, 11 the number of
employee surveys submitted varies considerably among similarly sized offices. In
addition, when compared to average weekly office traffic, the number of surveys
completed is low.




10
 FO traffic was used for comparison because accurate Self-Help PC usage information was unavailable.
PC Usage information is discussed in more detail in the “Self-Help PC Usage” section.

11
  This chart presents data from a FO Management Information Customer Service report for the period
April 10 through June 26, 2009.

Self-Help Personal Computer Pilot (A-14-10-11001)                                                    4
       Number of                      Level-1 FOs 12                           Level-2 FOs 13
     Employee Survey                              Average                                Average
       Responses             Number of          Weekly Office          Number of        Weekly Office
       Submitted             Pilot Sites           Traffic             Pilot Sites        Traffic
           100+                   7                1,185                    0                 0
           50-99                  3                1,076                    2              535
           25-49                  8                1,340                    2              445
            1-24                 19                1,197                    8              432
              0                   0                     0                   1              558

Although the Agency’s goal was to capture information that represents the entire
population of Self-Help PC users at attended sites, our visit to an attended site,
combined with the variance in the number of employee survey responses submitted
among similarly sized offices, suggests unplanned “selectiveness.” 14 As a result, the
survey responses may not fully reflect the overall user experience.

While we acknowledge and support the importance of gathering employee feedback on
the Self-Help PC pilot, we believe users should be more involved in providing feedback.
In the current process, designated employees at attended sites record their
observations regarding user experiences with Self-Help PCs. However, users may not
communicate all their thoughts to the designated employees, and as a result of breaks
or assisting other users, the designated employees may not be present for the entire
transaction. Furthermore, the validity of general conclusions drawn from user
comments may be questionable because the responses may reflect unintended biases
for or against the pilot. 15

Unattended Self-Help PC Pilot Sites

At the six unattended pilot sites, paper surveys were available for users to complete if
they wanted to provide the Agency with feedback. Only 34 surveys were collected over
a 12-week period, and 3 of the 6 sites did not have any surveys returned. As a result,
this method provided limited feedback.
12
  Of the 58 Self-Help PC pilot sites, only the 52 attended sites were responsible for submitting employee
surveys. Of these 52 attended sites, 38 were level-1 FOs and 14 were level-2 FOs. Because of a data
discrepancy, 50 of the 52 attended sites are represented in this table (37 level-1 FOs and 13 level-2
FOs.)
13
     Id.
14
  On its Website, the American Association for Public Opinion Research’s Best Practices for Survey and
Public Opinion Research states “Sampling should be designed to guard against unplanned selectiveness.
A survey’s intent is not to describe the particular individuals who, by chance, are part of the sample, but
rather to obtain a composite profile of the population.”
15
   Page 58 of The Survey Research Handbook (2nd Ed.) by Pamela L. Alreck and Robert B. Settle states
“A measurement of any kind is valid to the degree it measures all of that and only that which it’s supposed
to measure. To be valid it must be free of extraneous factors that systematically push or pull the results in
one particular direction.”

Self-Help Personal Computer Pilot (A-14-10-11001)                                                          5
Feedback from employee surveys may not fully and accurately reflect the overall user
experience at attended Self-Help PC pilot sites, and the Agency collected limited
feedback from unattended sites. If the collected feedback does not fully and accurately
reflect users’ experiences with Self-Help PCs, the Agency may not be able to ensure it
is maximizing the value of the PCs in accordance with the Clinger-Cohen Act of 1996.

We discuss the process used by the Agency to collect Self-Help PC usage information
in the section below.

Self-Help PC Usage

At the 52 attended Self-Help PC pilot sites, the Agency used the employee surveys
discussed above as the primary mechanism to determine usage. We determined these
surveys were not consistently completed every time a visitor used a Self-Help PC. To
further evaluate the collection of employee surveys as a means to track Self-Help PC
usage, we obtained a VIP report listing Self-Help PC use at an attended pilot site over a
4-day period. The report provided information including the date, user name, SSN,
transaction start and end times, and transaction type for FO visitors indicating they
intended to use a Self-Help PC when they checked in. The VIP report indicated that
surveys were only completed for one-third of Self-Help PC users over the period. SSA
staff stated the VIP report may be misleading because visitors may indicate in VIP that
they planned to use a Self-Help PC but never completed the transaction using the PC.

At the six unattended Self-Help PC pilot sites, the Agency did not implement employee
surveys because employees were not designated to assist users. Instead, paper
surveys were available for users to complete if they wanted to provide the Agency
feedback. This method did not provide any indication of the Self-Help PC users who
chose not to complete a survey and therefore this process could not fully track usage.

Electronic usage logs are ideal to track Self-Help PC usage because they can ensure
data are recorded for every transaction at attended and unattended sites. SSA planned
to track use of Self-Help PCs with software used by the Agency to track visits to its
Website. The Agency assigned Internet Protocol (IP) addresses 16 to the Self-Help PCs
and believed it could track usage by identifying the Webpage visits from the IP
addresses of Self-Help PCs. System reboots 17 have prevented this method from
accurately determining usage. To protect the exposure of personally identifiable
information, the Self-Help PCs are configured to reboot after being idle and after each
user logs off. Upon rebooting, the computers automatically access SSA’s Website,
which is captured in the electronic logs. The Agency stated the electronic logs can
capture visits to the Retirement Estimator and Apply for Disability WebPages; however,
the logs cannot distinguish between Webpage visits for the other nine transactions
available on Self-Help PCs and those initiated by system reboots. Agency staff stated
they will try to address this issue.


16
     An IP address is a unique number assigned to a computer connected to the Internet.
17
     Rebooting restarts the computer and reloads the operating system.

Self-Help Personal Computer Pilot (A-14-10-11001)                                         6
An accurate account of Self-Help PC usage is necessary for senior management to
determine whether Self-Help PCs maximize value to the Agency in accordance with the
Clinger-Cohen Act of 1996. Our analysis showed the Agency has been unable to
accurately track usage through its surveys or electronic usage logs.

Below we discuss the specific areas where we believe SSA can improve its data
collection and evaluation strategy for the pilot.

TECHNIQUES TO IMPROVE DATA GATHERING FOR PILOT EVALUATION

Collection of User Feedback

The majority of feedback collected by the Agency comes from employee surveys at
attended sites. As previously indicated, we acknowledge and support the importance of
gathering employee feedback. However, we believe surveys should also be
administered directly to users because the survey data submitted by employees may
not fully reflect the overall user experience.

It should be noted that SSA was prohibited from questioning Self-Help PC pilot users
directly without prior OMB approval. 18 Obtaining OMB approval normally takes over
4 months, and because the Self-Help PC pilot was part of a Commissioner initiative,
SSA chose to not seek approval to expedite implementation of the pilot. However, had
SSA obtained OMB approval to directly question Self-Help PC users and prepared a
customer survey, feedback could be more accurately obtained. For instance, a survey
could automatically initiate on the Self-Help PC before a user logs off or at fixed time
intervals. This would ensure a more even distribution of responses and offer Self-Help
PC users at attended sites a chance to provide feedback from their own perspective.
Furthermore, by requiring that the user respond or decline the survey, this method could
also track Self-Help PC usage.

As an alternative survey approach, the Agency included a question about the Self-Help
PC pilot on an OMB-approved survey to measure visitor satisfaction at the Agency’s
busiest FOs. The survey was contracted by OQP in December 2008 and asked
whether visitors attempted to use Self-Help PCs, and if so, how they rated their
experience on a scale of excellent to very poor. Although the Agency intended for the
survey to include 12 of the 58 Self-Help PC pilot sites, Self-Help PCs were in place at
only 4 of the offices as a result of pilot delays. Only a few responders indicated they
had used the computers. As such, these customer satisfaction surveys did not provide
enough data to support meaningful analysis of the pilot.

Use of VIP Data

The VIP system contains information about Self-Help PC pilot transactions for FO
visitors who indicated they planned to use a Self-Help PC. While there may be
scenarios where VIP does not reflect actual use of the Self-Help PC, VIP data can be

18
     PRA §§ 3502(3) and 3504(c)(1), 44 U.S.C. §§ 3502(3) and 3504(c)(1).


Self-Help Personal Computer Pilot (A-14-10-11001)                                         7
used in conjunction with employee surveys to more accurately determine usage given
that surveys alone do not provide an accurate account of Self-Help PC usage.
Furthermore, VIP data includes users’ names and Social Security numbers, which
would allow the Agency to examine user demographics to better analyze the results of
the pilot.

SECURITY OF SELF-HELP PCs

SSA used several techniques to ensure Self-Help PCs were safe for the Agency and its
customers. SSA standards state the computers should be physically secured, and print
traffic should be routed to printers accessible only by SSA staff. 19 During both our site
visits, we found the computers were physically secured. We were unable to print at one
site and could print to a secured printer at the second site. The Agency also developed
consistent signs to inform customers that use of Self-Help PCs was limited to SSA
business and the need to protect their personal information.

Self-Help PCs were isolated from the rest of SSA’s network. During our site visits, we
were able to run a diagnostic report on the computers we tested and verify their IP
addresses were consistent with the isolated ranges established by the Agency for the
pilot. We also accessed an email and messenger application 20 on both the Self-Help
PCs we tested; however, Agency controls prevented us from sending or receiving
emails or connecting to the messenger service. Agency staff stated these applications
could not be removed from the Self-Help PCs without compromising the functionality of
SSA’s eServices.

Furthermore, we verified the Agency was using software that, upon rebooting, restored
the computer to the configuration established by the Office of Telecommunications and
Systems Operations. This ensured system stability as well as eliminated threats like
malicious code.

During our testing, all Websites were blocked except those belonging to Federal
agencies. However, based on discussions with Agency staff and SSA’s Self-Help PC
Website, there was a period of several days when systems activities inadvertently
allowed Self-Help PCs to access other Websites. Although this allowed Self-Help PCs
to be used for purposes other than Agency business, it did not threaten SSA’s
production environment.

The Agency designed a “Click When Finished” button to ensure that no personal
information remained on the computer after a session. This button always remains on-
screen, and clicking the button is supposed to reboot the computer. On our visit to an
unattended site, however, the button did not function until after we manually rebooted
the computer. Furthermore, at both the pilot sites we visited, users were discouraged
by Agency staff from clicking the button because doing so did not complete the
application and caused some users to lose the information they entered. Agency staff

19
     SSA, Standards for Self-Help Computers in Field Offices, Section 2(1) & (3).
20
     The Windows Messenger application allows users to send and receive messages and files.

Self-Help Personal Computer Pilot (A-14-10-11001)                                             8
stated that if a new configuration is established for Self-Help PCs, they will address this
issue. FO staff at the attended site also stated that the on-line applications
automatically timed out after a certain amount of idle time, which also caused users to
lose information.

FIELD OFFICE OBSERVATIONS

The FO staff we interviewed believed the Self-Help PC pilot was worthwhile and
important to promote eServices. At the attended site, the staff noted the pilot saved
time by allowing one employee to assist two visitors at once. They also explained that
they were able to increase Self-Help PC usage through encouragement, by letting
visitors know designated employees are available to assist with any problems, and by
providing staff with incentives.

Employees at both the attended and unattended sites commented that when claimants
were filing for disability benefits, it was beneficial for them to provide their own
explanations rather than having an SSA employee describe their situation on the
application. Based on their experience with the public and the Self-Help PC pilot, FO
staff suggested the Agency allow Proof of Income letters to be printed immediately at
the FO rather than the existing process of having the letters mailed within 2 weeks.
They also suggested the Agency adjust data validation to prevent errors resulting from
punctuation mistakes and abbreviations, as well as allow users to list multiple doctors
under the same location on the disability application, generating only one letter of
inquiry for medical records. We recognize the Self-Help PC pilot was designed to use
SSA’s existing eServices, and implementing these suggestions goes beyond the scope
of the pilot. However, we believe these suggestions support SSA’s objective to improve
service for FO visitors and it is important to provide the Agency with the feedback we
received from front-line staff.




Self-Help Personal Computer Pilot (A-14-10-11001)                                             9
                                          Matters for Consideration
We applaud the Agency for its efforts to initiate measures to prevent FOs from being
overwhelmed by large backlogs and an increasing number of retirement and disability
claims. Such initiatives are critical for the Agency to find alternative methods to conduct
its business with the public. As SSA moves forward with this initiative, we believe the
information contained in this report will assist the Agency in its evaluation.

Given the Self-Help PC pilot is part of the Commissioner’s SMART service initiative,
great care should be taken in creating the parameters for evaluating the effectiveness of
the initiative in achieving the intended goals. The current assessment structure lacks
substantial firsthand user feedback, relying heavily on FO employee surveys. While we
believe it is important to gather and consider employee feedback, we also believe users
should be more involved in providing feedback.

Based on the Agency’s current evaluation techniques, there is not a sufficient basis to
determine the effectiveness of the Self-Help PC pilot. We believe the above information
provides useful insight on areas that should be addressed as a part of the Agency
evaluation process for the Self-Help PC pilot. For example, by systematically
implementing an electronic survey for users to complete, the Agency could obtain a
better assessment of usage and users’ feedback at both attended and unattended sites.
We also support the Agency in further pursuing the use of electronic usage logs, which
would ensure usage data is recorded for every Self-Help PC transaction. The VIP
system may also be useful for tracking usage and could provide user demographics,
allowing the Agency to better analyze the pilot. Improving evaluation techniques would
assist the Agency in meeting the requirements of the Clinger-Cohen Act of 1996. 21

We encourage the Agency to explore alternatives to timeouts and the “Click When
Finished” button that will facilitate the security of personally identifiable information,
while minimizing user impact. We also encourage the Agency to consider the
suggestions provided by the FO staff we interviewed. Allowing Proof of Income letters
to be printed immediately at the FO would be more convenient for customers.
Furthermore, enhancing eServices with better data validation and allowing multiple
doctors to be listed under one location on the disability application would increase
customer satisfaction.




21
     Pub. L. No. 104-106, Subtitle C, supra.

Self-Help Personal Computer Pilot (A-14-10-11001)                                        10
                                            Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments




Self-Help Personal Computer Pilot (A-14-10-11001)
                                                                      Appendix A

Acronyms

    eServices           Electronic Services

    FO                  Field Office

    IP                  Internet Protocol

    OMB                 Office of Management and Budget

    OQP                 Office of Quality Performance

    OPSOS               Office of Public Service and Operations Support

    PC                  Personal Computer

    PRA                 Paperwork Reduction Act of 1995

    Pub. L. No.         Public Law Number

    SMART               Space Modernization and Reception Transformation

    SSA                 Social Security Administration

    U.S.C.              United States Code

    VIP                 Visitor Intake Process




Self-Help Personal Computer Pilot (A-14-10-11001)
                                                                                   Appendix B

Scope and Methodology
The objective of this evaluation was to review the effectiveness of the Social Security
Administration’s Self-Help Personal Computer (PC) pilot. Specifically, this evaluation
focused on the impact of Self-Help PCs on electronic services’ (eServices) usage and
field office (FO) performance and security concerns related to the public’s use of
Agency computers.

To assess the impact of Self-Help PCs on eServices’ use and FO performance as well
as the security concerns related to the public’s use of Agency computers, we

•   reviewed the E-Government Act of 2002 and the Clinger-Cohen Act of 1996;
•   reviewed Agency documentation regarding the pilot;
•   examined the results of surveys completed by FO staff;
•   interviewed Headquarters personnel from the Offices of Public Service and
    Operations Support (OPSOS), Telecommunications and Systems Operations
    (OTSO), and Quality Performance; and
•   visited an attended and unattended pilot site to observe the pilot’s implementation,
    interview staff, and test the security of Self-Help PCs.

We performed our review during June and July 2009 in Baltimore, Maryland, and
Louisville, Kentucky. The entities reviewed were OPSOS and OTSO. We conducted
our review in accordance with the President’s Council on Integrity and Efficiency’s 1
Quality Standards for Inspections.




1
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.


Self-Help Personal Computer Pilot (A-14-10-11001)
                                                                     Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts
       Brian Karpe, Acting Director, Information Technology Audit Division

       Mary Ellen Moyer, Audit Manager

Acknowledgments
In addition to those named above:

       Phil Rogofsky, Audit Manager

       Michael Zimmerman, Auditor

       Cheryl Dailey, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-10-11001.




Self-Help Personal Computer Pilot (A-14-10-11001)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
